    UNITED STATES DEPARTMENT OF AGRICULTURE

           OFFICE OF INSPECTOR GENERAL




 STATEMENT OF THE HONORABLE PHYLLIS K. FONG

              INSPECTOR GENERAL


                     Before the

SENATE COMMITTEE ON ENERGY AND NATURAL RESOURCES




                  January 30, 2007
                                                                                                2

Good morning, Chairman Bingaman, Ranking Member Domenici, and Members of the

Committee. Thank you for inviting me to testify before you today to discuss our recent

audits pertaining to the U.S. Forest Service’s (FS) Healthy Forest Initiative (HFI) and

Large Fire Suppression Costs. The Office of Inspector General (OIG) devotes extensive

audit and investigative resources to evaluate and improve the Department of

Agriculture’s (USDA) management of its public assets and resources, including FS and

its National Forest System (NFS) lands. We are committed to conducting reviews of FS

programs and activities to assist agency officials and Members of this Committee in their

respective administrative and legislative oversight responsibilities.



USDA, through FS, is responsible for the management of our Nation’s national forests

and grasslands. FS oversees these lands through 155 national forests and 20 grasslands.

Wildfires on FS lands are becoming larger and more expensive to extinguish. From

fiscal year (FY) 2000 to 2006, FS suppression costs averaged $900 million annually and

exceeded $1 billion in 4 of those 7 years. In some years, FS has had to borrow funds

from other programs to pay for its wildfire suppression activities, and this has adversely

affected FS’ ability to accomplish work in other areas.



We recently completed two audits that evaluated FS efforts to reduce the threat of

wildfires. Our first audit evaluated FS implementation of the HFI. One of the primary

goals of this initiative is to reduce the threat of wildfire by removing hazardous fuels

from areas in national forests that constitute the greatest threats of catastrophic fire. Our

second audit evaluated the controls FS had in place to contain wildfire suppression costs.
                                                                                                3

In both audits, FS agreed to take action on all our recommendations. Summarized below

are the results of each audit.



I. IMPLEMENTATION OF THE HEALTHY FORESTS INITIATIVE



FS manages more than 192 million acres in the NFS. The agency has estimated that 73

million acres of this land and 59 million acres of privately owned forest land are at high

risk of ecologically destructive wildland fire. One of the most extensive and serious

problems related to the health of national forests is the over-accumulation of dead

vegetation that can fuel fires. The increase in the amount of hazardous fuels is the result

of several major factors. First, extended drought conditions have significantly increased

the amount of unhealthy or dead forests and vegetation. Second, widespread disease and

insect infestations have killed or affected the health of large areas of national and private

forestland. Third, past fire suppression practices of the Federal, State, and local

governments, companies, and individuals have prevented the natural use of wildland fire

(Wildland Fire Use – WFU) to reduce accumulated forest vegetation. It has been

estimated by some FS managers that hazardous fuels are accumulating three times as fast

as they can be treated. The accumulation of hazardous fuels has contributed to an

increasing number of large, intense, and catastrophically destructive wildfires. Reducing

the buildup of hazardous fuels is crucial to reducing the extent, severity, and costs of

wildfires.



We focused our audit work on the agency’s hazardous fuels reduction program because

more than half of FS’ funding under the HFI is allocated for this purpose. For FY 2005
                                                                                             4

and 2006, the FS budget for hazardous fuels reduction was approximately $262 million

and $281 million, respectively. Specifically, our audit evaluated FS management

controls related to (1) determining if projects were cost beneficial, (2) identifying and

prioritizing projects, (3) allocating funds among projects, and

(4) reporting accomplishments. The following are the major issues identified in our

audit.



Assessment of Risk

At the time of our audit, we found that FS lacked a consistent analytical process for

assessing the level of risk that communities faced from wildland fire and determining if a

hazardous fuels project would be cost beneficial. FS had not developed specific national

guidance for weighing the risks against the benefits of fuels treatment and restoration

projects.



In order to allocate resources most effectively, it is important for FS to be able to identify

which communities and what NFS resources are at risk. FS needs to be able to determine

the level of risk for significant and destructive wildland fires throughout the NFS and

what the potential benefit or payback would be from conducting a specific fuels reduction

project. While we agreed with FS that a traditional cost benefit analysis would be

impractical, we concluded that FS could develop a set of criteria to compare the relative

degrees of exposure and risk to wildland fire that each community faces. The assessment

should include a measure of the benefits and/or consequences of selecting one project

over another for treatment. Currently, FS’ nine regions each have different ways of
                                                                                             5

identifying priorities. At the time of our audit, FS could not adequately compare

hazardous fuels reduction projects among regions. This affects the ability to identify, on

a national basis, those projects that should be funded and completed first. While some

areas or communities may be at high risk from wildfires, it may not be effective for FS to

spend large sums of money on hazardous fuels reduction projects if the communities

have not enacted and enforced rigorous building and zoning regulations, otherwise

known as “Firewise” regulations. A community’s lack of “Firewise” regulations could

significantly reduce the effectiveness of any effort by FS to reduce hazardous fuels

around the community. FS officials believe that the new LANDFIRE system being

developed will provide more accurate nationwide data so that they can better define and

identify areas where fuels treatment would be most cost beneficial.



Prioritizing and Funding Projects

FS also did not have the ability to ensure that the highest priority fuels reduction projects

were funded first. Because projects were not prioritized under uniform, national criteria,

there was no systematic way to allocate funds to the most critical projects. Funds were

allocated based upon a region’s historical funding levels and targets for number of acres

to be treated that are set by the FS Headquarters office in Washington, D.C. There were

no controls in place to prevent funds from being allocated to projects in order to achieve

targets of acres treated instead of reducing the most risk. This could lead to less

important projects being funded.
                                                                                                      6

We recommended that FS develop and implement specific national guidance for

assessing the risks wildland fires present to residents and communities and determining

the comparative value and benefit of fuels treatment/restoration projects. We also

recommended that FS establish controls to ensure that the process and methodology to

identify and prioritize the most effective fuels reduction projects can be utilized at all

levels to ensure funds are distributed according to the priority of the projects. This

process should have uniformity (and comparability) from the local level (districts)

through to the Headquarters office and across geographic boundaries (i.e. among

regions).




Performance Measures and Reporting Standards

We found that FS performance measures and reporting standards did not provide

adequate information to evaluate the effectiveness of a fuel treatment practice. They did

not communicate to either FS managers or other stakeholders whether the treatment of an

acre of forest had resulted in changing its condition class 1 or if the project reduced the

risk from catastrophic wildland fire. The agency’s focus has been on achieving firm

annual targets (output) that are measured in the number of acres treated. However, these

acres are not homogenous, meaning that some acres of hazardous fuels create much more

risk to communities and resources than others. Reporting the number of acres treated did

not communicate the amount of risk that has been reduced. Focusing only on acres


1
  The fire-regime condition class is an expression of the departure of the current condition from
the historical fire regime resulting in alterations to the ecosystem. A condition class is measured
as a 1, 2, or 3, with 3 being the most significant departure from the historical fire regime.
Activities that cause the departure include fire exclusion, timber harvesting, grazing, growth of
exotic plant species, insects, and disease.
                                                                                            7

treated does not communicate key information on the effectiveness of the treatment

practice. In addition, hazardous fuels accomplishment reports did not provide detailed

information to evaluate the overall progress of the program; details such as the location of

treatments, changes in condition class, and initial or maintenance treatments are not

reported.



We recommended that FS develop and implement a more meaningful and outcome-

oriented performance measure for reporting metrics, such as acres with “risk reduced” or

“area protected.” Also, FS should direct that implementing effective integrated

treatments are more important than solely meeting acreage targets. We also

recommended that FS improve accomplishment reporting by including more detailed

information, such as breaking down accomplishments by region, noting changes in

condition class, and differentiating between initial and maintenance treatments and

multiple treatments on the same acres.




FS agreed with our audit findings and recommendations and has committed to take action

on them.



II. LARGE FIRE SUPPRESSION COSTS


As part of the agency’s ongoing effort to contain wildfire suppression costs and increase

the Wildland Fire Management Program’s accountability, FS senior management

requested that OIG evaluate FS’ controls over its wildfire suppression costs. FS wanted

OIG to take an objective and unbiased look at FS’ current large fire management
                                                                                           8

practices. Our primary objective was to evaluate the controls FS had in place to contain

wild fire suppression costs. Specifically, we sought to (1) determine whether FS ensured

non-Federal entities paid an equitable share of wildfire suppression costs, (2) evaluate

whether wildland fire use (i.e. the management of naturally ignited wildland fires to

accomplish specific management objectives like fuels reduction) was optimized, and

(3) assess the cost effectiveness of FS wildfire suppression activities.



Suppression Costs Driven by Efforts to Protect Private Property

The Federal Wildland Fire Management Policy of 1995 and its 2001 update direct

Federal fire management agencies, including FS, to safely suppress wildfires on Federal

lands at minimum cost considering the relative values of property and natural resources at

risk. 2 The Federal Wildland Fire Management Policy also makes State and local

governments responsible for protecting structures within the Wildland Urban Interface

(WUI) 3 from fire.



We found that the majority of FS’ large fire suppression costs are directly linked to

protecting private property in the WUI. The number of private homes being built in the

WUI is increasing each year. The Federal Government has little or no control over this

property development that has a major impact on FS fire suppression costs. Much of this

development is basically unregulated from a fire protection standpoint. Many


2
   The Federal Wildland Fire Management Policy, chartered in 1994 by the Secretaries of the
Interior and Agriculture, provides the foundation for Federal interagency fire management
activities.
3
  The WUI is the area where structures and other human development meet or intermingle with
undeveloped wildland. Wildland urban interface is any area containing human developments,
such as a rural subdivision, that may be threatened by wildland fires.
                                                                                              9

communities have few or no regulations mandating the use of fire resistant building

materials or establishing/maintaining fire safe areas around structures. FS suppression

costs are likely to continue to rise because current public expectations and uncertainties

among Federal, State, and local fire management agencies about fire protection roles and

responsibilities compel FS to suppress fires when private property is at risk, even when

fires pose little threat to NFS lands. Giving natural resource protection an equal priority

to private property protection in the WUI (or conducting any sort of cost/benefit analysis)

is considered by FS managers to be politically infeasible.



Although the Federal Wildland Fire Management Policy makes State and local

governments primarily responsible for protecting structures in the WUI, FS managers

have not renegotiated their agreements with State and local governments to apportion

responsibilities and costs as required. State and local governments control building and

zoning in the WUI. However, protection areas have not been redefined to reflect State

and local governments’ responsibilities accompanying this growth. FS managers

continue to make it a priority to protect private property over natural resources.

Consequently, FS WUI protection expenditures have increased rather than decreased.

In FY 2003 and 2004, about 87 percent of the large wildfires we reviewed identified

protecting private property as a major strategy objective for the suppression effort. 4

Some FS managers estimate that between 50 to 95 percent of large wildfire costs borne

by the agency are directly related to protecting private property in the WUI. Based on




4
  Based on an analysis of 37 wildfires occurring in 2003 and 2004 with suppression costs
exceeding $5 million each.
                                                                                             10

these estimates, FS spent as much as $1 billion during those 2 years protecting private

properties in the WUI. 5



To ensure that the burden of protecting property in the WUI is shared equitably among

the Federal, State, and local entities involved, we recommended that FS seek clarification

from Congress as to the responsibilities of both FS and its non-Federal partners to protect

private properties threatened by wildfires. FS should renegotiate wildfire protection

agreements as appropriate. The Federal Government should also find ways to encourage

State and local governments to enact and vigorously enforce “Firewise” building and

zoning codes.



Use of Wildland Fire Should Be Expanded To Control Costs of Future Fires

Wildland fire use (WFU) 6 lets naturally occurring fires burn accumulated hazardous fuels

that increase the likelihood of large expensive wildfires. Naturally occurring forest fires

can also be beneficial for forest and plant health by returning the forests back to their

natural state. To control the risk of costly, catastrophic wildfires, the Federal Wildland

Fire Management Policy specifies that FS give WFU and fire suppression equal

consideration. However, existing FS firefighting policies and the lack of qualified WFU

personnel restrict FS managers from doing so.




5
  This calculation is based on our characterization of “large wildfires” as those exceeding $1
million as recorded in FS’ financial information system.
6
  WFU is the management of naturally ignited wildland fires to accomplish specific resource
management objectives such as fuels reduction in pre-defined geographic areas outlined in fire
management plans.
                                                                                                    11

Under current FS fire policies, FS can manage a fire for either WFU or suppression.

Once a fire has been fought for suppression, it may not again be managed for WFU.

Concerns that a natural fire could potentially escape FS control if not suppressed and the

protection expectations of private landowners in nearby communities result in most NFS

fires being treated initially as suppression. Many potentially beneficial fires may be

suppressed because of the restriction on switching firefighting management objectives.

Of the almost 80,000 natural ignitions that occurred on FS land from 1998 through 2005,

approximately 1,500 – only 2 percent – were allowed to burn as WFU. In addition, FS

managers have access to far fewer teams for WFU (7) than teams for suppression (55).

FS estimates it needs to have 300 fire use managers to be able to select WFU as a strategy

for all eligible fires. 7 At the time of our audit, the agency had only 83 fire use managers.



The restrictive policies and lack of qualified personnel contribute to the overwhelming

predisposition for FS to suppress fires rather than let them burn as WFU. Consequently,

FS may have missed opportunities to reduce the hazardous fuels that contribute to large,

expensive fires and may have unnecessarily spent millions of dollars suppressing

wildland fires.



To address the need to optimize wildland fire use, we recommended that FS modify

current policies to allow (1) concurrent management of wildland fires for both WFU and

suppression, (2) transition between WFU and suppression, and (3) management of

wildfire suppressions to accomplish fuel reductions. We also recommended that FS



7
    Eligible fires are those that meet the specific WFU criteria established by each national forest.
                                                                                           12

prioritize funding to accomplish the staffing and training changes needed to implement an

expanded WFU program.



FS Cost-Containment Controls Need To Be Strengthened

FS has developed internal controls to strengthen financial accountability for line officers

and incident commanders. However, we found that the cost-effectiveness of managers’

and incident commanders’ decisions and oversight were neither tracked during the fire

nor evaluated afterwards. In addition, the agency’s performance measures and reporting

mechanisms did not adequately allow FS management to assess the effectiveness of its

wildfire suppression cost-containment efforts, because the information FS summarized at

the end of each fire season lacked essential data (such as the kinds of critical

infrastructure or natural resources lost or saved) that policymakers need to evaluate FS

suppression activities in relation to the monies spent.



We also determined that FS national and regional wildfire cost-containment reviews have

limited effectiveness in identifying and correcting suppression cost inefficiencies because

they (1) did not sufficiently address large cost factors such as the selection of suppression

alternatives and the effectiveness of tactics, (2) did not help to improve performance

because identified problems were not communicated to affected parties and corrected,

and (3) did not occur with sufficient frequency.



We recommended that FS (1) develop a reporting mechanism to gather and summarize

more meaningful wildfire suppression information, (2) increase the accountability of line
                                                                                           13

officers and incident commanders by incorporating into their evaluations an assessment

of strategic and tactical cost-effectiveness, and (3) formalize newly developed wildfire

cost assessment review procedures in FS directives and provide training to FS staff that

perform the reviews.



In summary, we concluded that FS’ escalating cost to fight fires is largely due to its

efforts to protect private property in the WUI bordering FS lands. Homeowner reliance

on the Federal Government and the lack of “Firewise” building and zoning regulations

results in an enormous financial burden on FS as it suppresses wildland fires. Efforts to

reduce these costs need to include more equitably sharing the burden with State and local

governments who have the authority to regulate growth in the WUI. In order to help

reduce future costs, FS needs to revise policies that limit or restrict WFU. FS also needs

to improve the accountability of its line officers and incident commanders and improve

the effectiveness of its large fire reviews.



FS has agreed with our findings and recommendations and has already begun discussions

regarding appropriate incentives to encourage States to enter into equitable protection

agreements. The agency has advised OIG that it will expand these discussions to include

its Federal wildland fire management partners and the Office of Management and

Budget. Any agreed upon incentives will be included in national directives so that they

will be considered as each region renegotiates agreements with States. FS has already

taken steps to accomplish the needed staffing and training recommended so that more
                                                                                        14

people can be qualified and available for critical positions to manage WFU events on

incident command teams.



I want to express my sincere thanks to FS officials and employees for the assistance and

considerable cooperation they extended to OIG during these two audits. FS faces many

difficult programmatic issues and natural resource challenges as it strives to provide good

stewardship of America’s national forests. OIG’s management and staff greatly

appreciate the admirable but frequently uncredited work that FS employees perform on a

daily basis to preserve and enhance our precious national forests.



This concludes my testimony. Thank you again for inviting me to testify before the

Committee. I would be pleased to address any questions you may have.
